Audit Report




OIG-11-073
SAFETY AND SOUNDNESS: Failed Bank Review of Appalachian
Community Bank, F.S.B.
June 07, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                               June 07, 2011


             OIG-11-073

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Appalachian Community Bank, F.S.B.


             This memorandum presents the results of our review of the failure of Appalachian
             Community Bank, F.S.B. (Appalachian) located in McCaysville, Georgia.
             Appalachian was established in April 2007 and operated a main office in
             McCaysville and branches in North Carolina and Tennessee. The Office of Thrift
             Supervision (OTS) closed Appalachian and appointed the Federal Deposit Insurance
             Corporation (FDIC) as receiver on December 17, 2010, while the thrift was still in
             its de novo phase. As of September 30, 2010, Appalachian had approximately
             $68.2 million in total assets and $76.4 million in total deposits. FDIC estimated
             that the loss to the Deposit Insurance Fund is $26.0 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Appalachian that was limited to (1) ascertaining the
             grounds identified by OTS for appointing the FDIC as receiver, and (2) determining
             whether any unusual circumstances exist that might warrant a more in-depth
             review of the loss. In performing our review we (1) examined documentation
             related to the appointment of FDIC as receiver, (2) reviewed OTS reports of
             examination, and (3) interviewed OTS examination personnel.

             We conducted this performance audit during December 2010 and January 2011 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-073
Page 2

Causes of Appalachian’s Failure
OTS appointed FDIC as receiver based on the following grounds: (1) the thrift’s assets
were less than its obligations to its creditors and others, (2) the thrift was critically
undercapitalized, and (3) the thrift’s board of directors consented to the appointment.

The primary cause of Appalachian’s failure was the thrift’s high concentration in
nonresidential real estate and land loans in Georgia. The thrift’s management
pursued a high-risk strategy to rapidly grow the institution, which resulted in total
assets almost doubling from 2007 to 2008. This rapid growth represented a
material change from the thrift’s original business plan and included a large amount
of loan participations from Appalachian Community Bank, a state chartered bank
under the same holding company as Appalachian. This growth in high-risk loans
without adequate loan portfolio diversification and concentration limits contributed
to the increase in problem assets, which subsequently led to the erosion of capital
and earnings.

Appalachian was reliant on Appalachian Community Bank for managerial and back
office support, including general accounting services, information technology
support, and loan operations. Appalachian failed nine months after the Georgia
Department of Banking and Finance closed the state-chartered bank on March 19,
2010.

Conclusion
Based on our review of the causes of Appalachian’s failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the thrift’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth review of
the thrift’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated it agreed with our conclusion as to the causes of the failure
of Appalachian Community Bank and that it concurs with our determination that an
in-depth review of the bank’s failure is not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.
OIG-11-073
Page 3

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Rashmi Bartlett, Audit Manager, at (202) 927-5839.

Attachments
         OIG-11-073

       Attachment 1
Management Response
         OIG-11-073

       Attachment 1
Management Response
                                                   OIG-11-073

                                                 Attachment 2
                                                   Distribution


Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
